                                         WHITE PAPER



What America Wants from the
Postal Service
A Survey of Internet-connected Americans

May 21, 2013




                                    Report Number: RARC-WP-13-009
RARC-WP-13-XXX                                                  What America Wants from the Postal Service




                                                           EXECUTIVE SUMMARY


                                   What America Wants
                                 from the Postal Service
America's communications needs are continually evolving; the Digital Revolution has
accelerated that change. Physical mail is losing its primacy as the most widely used
communication channel, increasingly displaced by the immediacy and convenience of
the Internet. Individuals and businesses now rely on many forms of communication and
methods of transacting business — both digital and physical. At the same time, the
nation's current digital communications infrastructure still has some fundamental gaps
hindering public adoption of the online channel such as lack of universal access,
security concerns, and the decentralized nature of the network.

The U.S. Postal Service is at a critical juncture in determining its role in the Digital Age.
Fundamental questions about the role of the Postal Service in the lives of Americans,
both now and in the future, are at the heart of determining how to modernize.
Considerations to the debate about how the Postal Service should evolve often include
insights from Postal Service management, the postal regulator, employee groups,
individual customers, large mailers, members of Congress, the Administration, and
other stakeholders. Largely absent from the debate, however, has been the direct voice
of the American public — the very people the Postal Service exists to serve.

The Postal Service Office of Inspector General commissioned a study by the market
research firm InfoTrends to better understand how Internet-connected Americans view
the Postal Service now, as well as what role it could play in their lives in the future. The
study was an Internet-based survey. The findings are intended to be the basis for more
in-depth follow-up research into topics this initial survey identifies as important.
Additional research will likely reach a larger population, including those without access
to the Internet, and may include focus groups, additional surveys, and/or interviews.

The following report, What America Wants from the Postal Service: A Survey of
Internet-connected Americans, describes the results of InfoTrends’ study.




U.S. Postal Service Office of Inspector General                                              May 21, 2013
                                                  i
RARC-WP-13-009                                                     What America Wants from the Postal Service


Key Findings

While survey results were compared across multiple demographic criteria, the age of
respondents was most likely to reveal variations in response. Specifically, younger
respondents had the most open views about what the Postal Service can and should be
doing, while older respondents appeared to be less comfortable with the Postal Service
changing its traditional role. Results did not vary significantly based on whether
respondents came from rural or urban areas.

Several key trends emerge from the study and the OIG's analysis:

          Perceptions of the Postal Service's Role: The overwhelming majority of
           respondents think their life would be affected adversely if the Postal Service did
           not exist in five years. Most respondents also consider Postal Service delivery a
           public service that should be maintained, even if it is not profitable. Respondents,
           however, generally misunderstand how the Postal Service is funded, believing it
           is funded through tax dollars, rather than postage sale revenue.

          Accessibility: While most respondents are satisfied with the service and
           accessibility of their Post Office, a strong majority indicated they would be
           interested in more self-service options. The majority of respondents, however,
           said if they were to have access to postal products and services through an
           existing non-postal operated retail facility — such as a grocery store or pharmacy
           — rather than their local Post Office, it would neither increase nor decrease their
           use of the Postal Service.

          Cost Reduction Efforts: Respondents are generally not opposed to closing Post
           Offices to reduce costs, but are less likely to support the notion if it resulted in
           their local Post Office closing. Respondents, however, do not support cost
           reduction efforts that would delay mail delivery, reduce mail delivery to three
           days per week, or decrease Post Office hours.

          Comfort Level with Online Interactions: The majority of respondents still have
           interest in receiving at least some physical mail. A strong majority of respondents
           indicated some level of discomfort conducting transactions online, but more than
           half of those indicated they do so anyway. The majority prefer receiving physical
           mail over digital messages, although there is at least some interest in receiving
           specific types of mail electronically rather than physically, such as advertising
           mail.

          Growth Opportunities: Respondents support service expansion at the Postal
           Service. Respondents expressed interest in being able to access additional
           services at Post Offices, such as renewing a driver's license and obtaining
           permits or licenses. Respondents are also interested in the Postal Service
           providing digital services, with younger respondents being most encouraging of
           growth in this direction.


U.S. Postal Service Office of Inspector General                                                 May 21, 2013
                                                  ii
                   Analysis




                              May 2013



          What America Wants
       from the Postal Service
A Survey of Internet-connected Americans
ANALYSIS                 What America Wants from the Postal Service




                         Table of Contents
                         Introduction ................................................................................................................................ 4

                         Research Background ................................................................................................................ 4

                            Objective and Scope ............................................................................................................... 4

                         Perceptions of the Role of the Postal Service ............................................................................ 5

                            Understanding of How the Postal Service is Funded ........................................................... 5

                            Expectation to Fulfill Universal Service Obligation ............................................................. 6

                         Insight on Accessibility of the Postal Service ............................................................................ 9

                            Interest in Self-service Options ............................................................................................. 9

                            Interest in Co-location of Post Offices .................................................................................. 9

                            Consumer Delivery Channel Preference ............................................................................... 10

                         Cost Reduction Measures .......................................................................................................... 12

                         Growth Opportunities ................................................................................................................ 14

                            Non-Postal Services ............................................................................................................... 14

                            Letter Carrier Services ........................................................................................................... 16

                         Digital Services ........................................................................................................................... 17

                            Level of Comfort with Online Interactions ........................................................................... 17

                            Postal Service Expansion into Digital Services ..................................................................... 18

                            Enabling Personalized Delivery Preferences ........................................................................ 19

                            Digital Mailbox Services ........................................................................................................ 19

                         Conclusions ................................................................................................................................. 21




© InfoTrends 2013 in collaboration with the USPS OIG                                                                                                                        2
ANALYSIS                 What America Wants from the Postal Service




                         List of Figures
                         Figure 1: Many Americans are Misinformed as to How the USPS is Funded ......................... 5
                         Figure 2: Older Americans are Most Likely to Understand that the USPS is Self-funded..... 6
                         Figure 3: Most Americans Support the Universal Service Obligation .................................... 6
                         Figure 4: Americans would be Impacted if the USPS Did Not Exist in 5 Years ..................... 8
                         Figure 5: Younger Americans are Least Likely to be Significantly Impacted if the USPS
                         Did Not Exist in 5 Years ............................................................................................................. 8
                         Figure 6: Americans are Interested in More Self-service Options at the Post Office ............. 9
                         Figure 7: Co-location Would not Dramatically Increase Use of the USPS .............................. 10
                         Figure 8: More than Half of Americans Prefer for Mail Delivery to be All or Mostly
                         Physical (versus Digital) ............................................................................................................ 11
                         Figure 9: Americans Show Preference for Physical Delivery by Type of Mail ........................ 11
                         Figure 10: Preference for Physical Mail by Type (by age) ........................................................ 12
                         Figure 11: Older Respondents are More Supportive of Closing Post Offices Even if it
                         Means Their Local Office Closes................................................................................................ 13
                         Figure 12: Varying Levels of Support for Potential Cost Reduction Measures for the Postal
                         Service ......................................................................................................................................... 13
                         Figure 13: Interest in Additional Services at Post Offices ........................................................ 15
                         Figure 14: Older Demographic is Less Interested in New Non-postal Services ..................... 15
                         Figure 15: People are Uncomfortable with Online Interactions, but Perform Anyway ......... 17
                         Figure 16: Digital Services Respondents Would Trust the USPS to Provide .......................... 18
                         Figure 17: Interest in Postal Service Providing Delivery Preference Manager Service .......... 19




© InfoTrends 2013 in collaboration with the USPS OIG                                                                                                                            3
ANALYSIS                 What America Wants from the Postal Service


                         Introduction
                         The U.S. Postal Service has long been a critical element of the country's national
                         communication infrastructure pre-dating the Constitution. Its legal mandate is to provide
                         services that "bind the nation together," and it has been doing so for more than 240 years.
                         It is currently the cornerstone of a mailing industry that generates $1.3 trillion in revenue
                         annually and supports about 8.4 million jobs, which accounts for 6% of all jobs in the
                         country.1 The Postal Service currently delivers mail and packages to every address—
                         business and residential—six days per week. Many people rely on the Postal Service to
                         affordably send and receive important communications and business transactions as well
                         as packages, including prescription drugs and other necessities. Nevertheless, reliance on
                         paper-based communications has decreased significantly in recent years as the digital age
                         has changed the way individuals and businesses communicate and transact. As a result,
                         mail volume has declined and the Postal Service has had to reassess how it can adapt to
                         meet evolving communication needs.

                         Research Background
                         All members of the postal community, including postal management, legislators,
                         regulators, and customers, are currently working to address the need for the Postal
                         Service to co-evolve with the rapidly changing environment. Critical, balanced, and
                         unbiased information about Americans’ communication needs and expectations could
                         help inform key decision-makers as they make important decisions about the future of
                         the Postal Service.

                         Objective and Scope
                         Due to limited consumer insight in the Postal debate, the Postal Service’s Office of
                         Inspector General (OIG)2 commissioned InfoTrends to collaboratively design, analyze,
                         and report on a pilot survey of Americans regarding their perceptions of the Postal
                         Service and the role it plays in their lives.

                         To achieve this objective, we conducted a web survey of 5,000 Internet-connected
                         Americans aged 18 years and older. As a web-based survey, this research inherently
                         excluded approximately 20% of the U.S. population who lack consistent Internet access,
                         thus creating a skew to the results. Consequently, this excluded segment of the
                         population, who are likely rural and lower-income respondents, would not have had an
                         opportunity to participate at this juncture. A web survey was chosen for convenience and
                         cost considerations with the understanding that those people not included in this pilot
                         survey could be reached in a future phase of the research (via mail, phone, or in-person).




                         1
                           “2012 EMA Mailing Industry Job Study,” Envelope Manufacturers Association, February 27, 2013,
                         http://www.envelope.org/.
                         2
                           The USPS OIG’s research initiatives are objective and independent from the Postal Service and
                         other stakeholders.

© InfoTrends 2013 in collaboration with the USPS OIG                                                                       4
ANALYSIS                 What America Wants from the Postal Service


                         These research findings (collected in February and March of 2013) should be treated as
                         preliminary insights into what Internet-connected Americans view as important about
                         the Postal Service and as a premise for additional exploration of key areas for discussion.

                         Our 45-question web survey was distributed by a third-party Internet survey provider
                         who gave incentives to encourage participation. To help ensure unbiased responses,
                         survey takers were not aware the research was commissioned by the USPS OIG.
                         Demographics of the respondents were monitored to ensure the final sample aligned with
                         the distribution of the most recent U.S. Census for age, region of the country, and gender.
                         InfoTrends handled data cleansing—removing respondents who completed the survey too
                         quickly and those who were not taking the survey seriously (based on open-ended
                         responses). This process resulted in the removal of approximately 400 responses
                         resulting in a total of 5,000 ―clean‖ responses.

                         Perceptions of the Role of the Postal Service
                         Understanding of How the Postal Service is Funded
                         As an independent establishment of the executive branch, the Postal Service receives no
                         tax dollars to fund its operations; these costs are funded solely by revenue it generates
                         through its products and services.3 Even so, 77% of respondents incorrectly believe the
                         Postal Service is either partially or fully funded through tax dollars.

                             Figure 1: Many Americans are Misinformed as to How the USPS is Funded




                         Respondents’ understanding of how the Postal Service is funded appears to differ by age.
                         As Figure 2 shows, only 9% of respondents between 18 and 24 were correct in their
                         understanding, compared to 35% of respondents 65 years of age and older.

                         3
                           Although the Postal Service does not receive any tax dollars to fund its operations, it receives
                         nominal funds as reimbursements for revenue foregone for services it has rendered based on legal
                         requirements, such as free mail for the blind and overseas voters.

© InfoTrends 2013 in collaboration with the USPS OIG                                                                          5
ANALYSIS                 What America Wants from the Postal Service


                           Figure 2: Older Americans are Most Likely to Understand that the USPS is
                                                         Self-funded




                         Expectation to Fulfill Universal Service Obligation
                         While it receives no tax dollars to fund its operations, the Postal Service has a legal
                         obligation to provide universal service to the American public. This includes providing
                         affordable delivery services to "every door, every day," even where it does not make
                         financial sense to do so. To explore Americans’ agreement with the universal service
                         obligation , we asked respondents to weigh in on whether or not the Postal Service should
                         continue to be required to serve all areas of the country. About 80% agree that it should,
                         including those that understand it is self-funded.

                               Figure 3: Most Americans Support the Universal Service Obligation




© InfoTrends 2013 in collaboration with the USPS OIG                                                                  6
ANALYSIS                 What America Wants from the Postal Service


                         Responses varied insignificantly by age, gender, income, and region of the country.
                         Nevertheless, rural respondents (82.8%) were understandably more likely to say it should
                         continue to serve all regions of the country when compared to suburban (79.3%) and
                         urban (79.9%) respondents. Since respondents were all Internet-connected, it would be
                         interesting to follow up on this question with a non-Internet connected sample to see if
                         the disparity between rural, suburban, and urban responses is more pronounced.
―Mail service is
                         Here are a few of the explanations respondents gave to support their opinions:
vital to our
economy.‖                    Yes, the Postal Service should be required to serve all areas of the
                             country.
– 45 to 54 year-old
woman from                      ―US mail has been around forever, it is as important as the right to freedom of
Pennsylvania                     speech.‖

                                ―I feel that Congress should shore up the [Postal Service] or keep out of its
                                 business.‖

                                ―It is important to have a standardized system in place for the processing of mail.
                                 I fear what would happen if the postal system [were] in the hands of a private
                                 party.‖

                                ―Mail service is vital to our economy.‖

                                ―Post offices are more than just a service station. In many smaller areas and
                                 towns, they serve as a hub of information. People use these areas for conversation
                                 and spread of community information and cohesiveness.‖

                             No, the Postal Service should not be required to serve all areas of the
                             country.

                                ―Until we get our financial feet under us, we will have to make cuts everywhere.‖

                                ―…People can adjust to having to drive a little farther to the nearest post office. I
                                 don’t think many people mail enough to care.‖

                                 ―Normal business wouldn't keep a location there. If you aren't being profitable,
                                 then move the resources to a more profitable location. This is probably why you
                                 are in the mess to begin with.‖

                                ―We need to continue to do what is economically fiscal for our country. If this
                                 means cuts in service, then I support it.‖

                                ―Personally, I feel that if the Post Office cannot be profitable, it should close and
                                 let the private sector provide the services.‖

                         With regard to the last quote, we wanted to explore how much Americans would be
                         affected if the Postal Service did not exist in five years. In fact, nearly 95% said they would
                         be impacted, with almost half of our respondents citing a significant impact.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                       7
ANALYSIS                 What America Wants from the Postal Service


                            Figure 4: Americans Would be Impacted if the USPS Did Not Exist in Five
                                                           Years




                         Figure 5 shows significant impact, by age. Younger respondents were least likely to be
                         significantly impacted.

                          Figure 5: Younger Americans are Least Likely to be Significantly Impacted if
                                             the USPS Did Not Exist in Five Years




                         While fewer younger respondents cited they would be significantly impacted if the USPS
                         did not exist in five years, the variation in the findings is notable, but not dramatic. In
                         fact, only 5% of respondents under the age of 35 cited that the elimination of the USPS
                         would have no impact on them. This finding signifies that the Postal Service has an
                         opportunity to engage these younger Americans and increase its value to them.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                   8
ANALYSIS                 What America Wants from the Postal Service


                         Insight on Accessibility of the Postal Service
                         The Postal Service operates nearly 32,000 Post Offices, with retail partners providing an
                         additional 70,000+ locations to purchase stamps and conduct other postal transactions.
                         It continues to review measures that would reduce costs, while providing similar levels of
                         services to the American public. Our research probed the topics of accessibility of postal
                         products and services as well as customer satisfaction. Respondents were generally
                         satisfied on both fronts.

                         Interest in Self-service Options
                         More than half of survey respondents are satisfied with the self-service options currently
                         available at their local Post Office. Many respondents showed interest in having more
                         self-service options for tasks such as buying stamps, paying for shipping, and mailing
                         letters or packages.

                          Figure 6: Americans are Interested in More Self-service Options at the Post
                                                            Office




                         The highest interest in self-service options came from respondents aged 25 to 34 (56%),
                         35 to 44 (49%), and those who were employed full-time (46%).

                         Interest in Co-location of Post Offices
                         In addition to more self-service options at the Post Office, another topic currently under
                         discussion is whether the Postal Service should use shared retail space with other
                         businesses to cut costs and offer the public more convenience. As shown in Figure 7, 62%
                         of respondents would use the Postal Service just as before, while 20% of respondents
                         would use it more often if their local Post Office was closed and moved inside a nearby
                         retail chain.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                  9
   ANALYSIS                 What America Wants from the Postal Service


                                Figure 7: Co-location Would Not Dramatically Change Use of the USPS




                            Respondents aged 25 to 34 (31%) and 18 to 24 (29%) showed the greatest likelihood of

―Post offices are           increasing their frequency of use of postal services when available in existing retail
more than just a            locations, with interest declining incrementally for older demographics. Respondents
service station...          from urban environments (25%) were also more likely to cite increased use of postal
People use these
                            services in this scenario when compared to their suburban (17%) and rural (12%)
areas for
conversation and            counterparts. In fact, 32% of rural respondents cited that they would use the Postal
spread of                   Service less often.
community
information and             Frequently-cited services that respondents want to have available at co-located Post
cohesiveness.‖              Offices included the ability to buy stamps (84%), have mail services available for packages
                            (75%), and drop off mail (71%).
– 18 to 24 year-old
man from Illinois
                            Consumer Delivery Channel Preference
                            Electronic substitution of traditional mail is accelerating, as consumers and businesses
                            increasingly rely on new technologies. The result has been considerable mail volume and
                            revenue decline for the USPS. Technological advances are making it much easier for
                            people to receive their mail in digital format. Nevertheless, problems remain with
                            developing digital services. These include a lack of universal access and inadequate levels
                            of privacy, confidentiality, security, and dependability. Even with physical mail declines,
                            over 50% of respondents still prefer physical mail over digital communications.




   © InfoTrends 2013 in collaboration with the USPS OIG                                                                   10
ANALYSIS                 What America Wants from the Postal Service


                           Figure 8: More than Half of Americans Prefer for Mail Delivery to be All or
                                                Mostly Physical (versus Digital)




                         Upon further examination, we found respondents were most likely to prefer personal mail
                         (e.g., postcards, letters) be delivered as only physical (71%), compared to periodicals
                         (40%), bills (31%), and advertising mail (15%).

                           Figure 9: Americans Show Preference for Physical Delivery by Type of Mail




© InfoTrends 2013 in collaboration with the USPS OIG                                                               11
   ANALYSIS                 What America Wants from the Postal Service




                            In general, our older respondents had a stronger preference for receiving physical mail.
                            This was especially true with personal mail, periodicals, as well as bills and statements.

                                         Figure 10: Preference for Physical Mail by Type (by age)




                            Possible explanations could be that the younger demographic is more comfortable with
                            electronic communications. Conversely, the older demographic might have a harder time
                            breaking with traditional ways of communicating, such as paying bills by mail and
                            receiving hardcopy periodicals. We will expand our exploration of the topic of comfort
                            with online communications in a later section.

                            Cost Reduction Measures
                            The Postal Service is considering two primary cost reduction measures: optimizing the
                            retail network and modifying delivery options. The goal is to optimize the retail network
                            by matching customer demand with supply, focusing on reducing unnecessary overhead
                            cost, and improving service. Some of these proposed improvements include closing some
                            underutilized facilities and modifying hours of operation.
―[The Postal
Service] needs to           Our survey respondents were divided regarding these proposed changes. Nearly 48%
break even, and
                            were supportive of closing underutilized Post Offices; however, only 58% of these
has too many post
offices that are            respondents were still in favor of closures if it was their local Post Office. This finding
underutilized.‖             aligns with some current discussions on the future of the Postal Service. Some people are
                            outwardly supportive of changes (e.g., closures), as long as the changes do not result in
– 65+ year-old man
from Washington             direct impact. Older respondents were more likely to maintain their support of closures
                            (64%), even if it was their own Post Office, compared to younger respondents (47%).




   © InfoTrends 2013 in collaboration with the USPS OIG                                                                   12
ANALYSIS                 What America Wants from the Postal Service


                           Figure 11: Older Respondents are More Supportive of Closing Post Offices
                                            Even if it Means Their Local Office Closes




                         Respondents showed a strong opposition (over 70%) to several proposed changes,
                         including reducing the hours of operation for Post Offices, closing sorting facilities
                         (resulting in a delivery delay), and moving to three-day delivery.

                          Figure 12: Varying Levels of Support for Potential Cost Reduction Measures
                                                     for the Postal Service




                         These results reconfirm the lack of support for changes that would disrupt respondents’
                         current mail usage patterns. Although it was not properly vetted in this survey,
                         Americans appear to want the Postal Service to change gradually. This could be an
                         interesting topic for follow-up research to determine what combination of cost reduction
                         measures would yield the most support. For example, if people support closing Post


© InfoTrends 2013 in collaboration with the USPS OIG                                                                13
ANALYSIS                 What America Wants from the Postal Service


                         Offices, then they may expect the remaining locations to maintain (or expand) their
                         existing hours of operation. In 2011, the Postal Service announced plans to review 3,600
                         Post Offices for closure, but criticism caused it to survey customers to determine the
                         effect of such closings, and it ultimately decided to reduce hours instead. It is unclear
                         whether the limited hours have met consumer need, and could be a valuable point to
                         furth Reforer explore.

                         More recently, the Postal Service announced plans to eliminate Saturday delivery of mail,
                         excluding packages, starting in August 2013. The Postal Service estimated that
                         eliminating Saturday delivery would save it $2 billion annually. Reducing delivery days is
                         no longer a near-term option, however, because Congress recently reenacted a measure
                         that requires it to maintains existing delivery days, but future legislation may allow for a
                         change to five day delivery.

                         Our research probed the value of Saturday delivery to respondents. Nearly 38% of
                         respondents opposed the elimination of Saturday delivery, with even stronger opposition
                         to reducing delivery to 3 days per week (74%).

                         Growth Opportunities
                         Non-Postal Services
                         The Postal Accountability and Enhancement Act of 2006 (PAEA) limited the Postal
                         Service to providing only postal products and services, except those non-postal products
                         and services grandfathered by the Postal Regulatory Commission (PRC). The PRC has
                         also allowed the Postal Service to provide non-postal products and services to
                         government agencies. As the Postal Service continues to look for new ways to generate
                         revenue to sustain its operations, however, the topic of providing non-postal products
                         and services has frequently emerged. Offering non-postal products and services may
                         allow the Postal Service to continue to meet Americans' needs, particularly in a world
                         increasingly reliant on digital communications, as well as earn additional revenue and
                         help cover costs associated with universal service. Existing non-postal services, such as
                         passport applications, generated a net income of $141 million in 2011.4

                         As the Postal Service seeks authority to expand its non-postal products and services, the
                         main requirements for new products and services may include requirements to meet the
                         needs of the public, not unfairly compete with the private sector, and cover its costs.
                         Potential new services include providing access to government services, such as licenses
                         and permits, allowing for collection of social benefits, and providing services for bill pay
                         at Post Office locations.




                         4
                          "U.S. Postal Service: Overview of Initiatives to Increase Revenue and Introduce Nonpostal
                         Services and Experimental Postal Products," Government Accountability Office, January 15, 2013,
                         http://www.gao.gov/assets/660/651298.pdf.

© InfoTrends 2013 in collaboration with the USPS OIG                                                                       14
ANALYSIS                 What America Wants from the Postal Service


                                      Figure 13: Interest in Additional Services at Post Offices




                         Most people would support driver’s license renewal services as well as being able to
                         obtain permits or licenses. Interest was lower for the other services, but that does not
                         necessarily indicate a lack of opportunity for the Postal Service. For example, 36% of
                         respondents were interested in paying bills at a Post Office. Having another recurring
                         reason to get over one-third of Americans into a Post Office could be a significant
                         opportunity for cross-selling and upselling other products and services.

                         Overall, nearly 50% of respondents expressed interest in having more services available at
                         the Post Office. As shown in Figure 14, interest in additional services from the Postal
                         Service was strongest among the younger demographics. Interest steadily declined with
                         age, with a significant drop in interest coming from the 65+ age category.

                          Figure 14: Older Demographic is Less Interested in New Non-postal Services




© InfoTrends 2013 in collaboration with the USPS OIG                                                                  15
ANALYSIS                 What America Wants from the Postal Service


                         A few open-response suggestions from the survey for new services included notary public,
                         copy/fax services, electronic money transfers, self-service stamp machines, and other
                         self-service options to avoid lines. One respondent commented, ―Wow, if I could do all
                         those things, you can only imagine what other ideas that could take place at the post
                         office... kind of like the old days... a General Store...‖

                         Through other narrative responses, respondents indicated that while they would enjoy
                         the convenience of having additional services at the Post Office, they are simultaneously
                         concerned that adding more services could put extra burden on already strained postal
                         clerks. Specifically, respondents said additional services could exacerbate problems of
                         long lines and slow service. The sample comments from narrative responses reflect those
                         concerns:

                                 "The staffing of post offices is already quite low, and providing more services
                                  would inevitably lead to even longer lines and wait times.‖

                                 ―Lines are too long just to get a stamp - I can't imagine the time that would be
                                  wasted waiting in line for other services.‖

                                 ―I just wish the services they are already obligated to handle were handled more
                                  efficiently. I don’t think that they can handle the services they are assigned now.‖

                         Some Americans feel the current workload for Postal Service employees is already
                         strained, and adding more services would only add to the problems and result in longer
                         wait times.

                         An important element of the discussion surrounding the potential for adding new
                         services, which our respondents were probably not aware of, is that postal clerks would
                         not necessarily be the people staffing the new services.

                         Letter Carrier Services
                         The Postal Service has also been considering new ways to optimize the value of its service
                         through letter carriers, such as bringing more services directly to people’s doors. For
                         instance, most respondents (62%) were interested in their letter carrier picking up
                         packages to be shipped. Considering that 43% of respondents said that mailing a package
                         was their most common reason for visiting a Post Office, it makes sense that so many
                         people would be eager to ship via a mail carrier rather than having to make a trip to the
                         Post Office. Yet, interestingly, Postal Service letter carriers already provide this service,
                         suggesting that Americans may not know about this option. In the open response
                         questions, several people said they would like their mail carrier to sell stamps, which is
                         another service letter carriers provide in some locations. These findings seem to indicate
                         the Postal Service could improve its marketing and educational efforts around services
                         already provided by letter carriers.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                     16
ANALYSIS                 What America Wants from the Postal Service




                         Respondents also indicated interest in other potential letter carrier services, such as
                         identity verification (23%) and bill payment/transactional capabilities (18%). At the same
                         time, 29% of respondents indicated they did not want letter carriers to provide any new
                         services in the future. Age was a factor in responses to these new services. Only 17% of the
                         younger respondents said they would want no additional services, versus the older
                         respondents in which over 45% said they would not want additional letter carrier
                         services.

                         Digital Services
                         Evolving technology, spurred by the expansion of the Internet, has set the stage for new
                         opportunities for the Postal Service to expand into digital services and find new ways to
                         meet consumers’ needs. Our research explored consumer comfort with online
                         interactions and new services the Postal Service could consider embracing.

                         Level of Comfort with Online Interactions
                         Before asking respondents about their preferences for digital services, we first wanted to
                         understand how comfortable they were performing various tasks online. Respondents
                         identified activities they did not feel comfortable conducting online. Nearly 30% of
                         respondents indicated no concerns about online interactions, with 35 to 44 year old
                         respondents (39%) being the most comfortable. For those who cited that they were
                         uncomfortable performing certain tasks, some perform them anyway. Figure 15 illustrates
                         the comparison of results for the 70% of respondents who stated they were uncomfortable
                         conducting certain interactions online.

                          Figure 15: People are Uncomfortable with Online Interactions, but Perform
                                                          Anyway




© InfoTrends 2013 in collaboration with the USPS OIG                                                                    17
ANALYSIS                 What America Wants from the Postal Service


                         Many respondents indicated they would conduct these online interactions regardless of
                         their discomfort. This was most pronounced in providing personal information (34%) and
                         providing contact information (23%) online.

                         The survey results indicate that comfort with online interactions varies by age, as well.
                         Against an average of 35%, only 24% of the younger demographic (18-34) indicated they
                         do not perform any of the listed interactions online, compared to 45% for the older
                         demographic (65+). Higher levels of comfort among younger respondents may be a result
                         of having grown up with technology that might elicit fewer concerns for them than with
                         the older demographic.

                         Postal Service Expansion into Digital Services
                         To better understand the relevance of digital services provided by the Postal Service,
                         InfoTrends explored some possible opportunities. Only 12% of respondents indicated
                         they would not trust the Postal Service to provide any digital services. Aside from package
                         tracking (which is a service the Postal Service currently provides), however, consumer
                         trust in the Postal Service offering the other digital services listed is limited. Concerns
                         about the overall security of digital communications may be hindering interest in digital
                         services from the Postal Service beyond simply a trust issue. This would certainly require
                         additional research to understand whether the lack of trust is based on the Postal
                         Service’s capabilities or based on the general mistrust people have with digital
                         communications.

                           Figure 16: Digital Services Respondents Would Trust the USPS to Provide




© InfoTrends 2013 in collaboration with the USPS OIG                                                                   18
ANALYSIS                 What America Wants from the Postal Service


                         Enabling Personalized Delivery Preferences
                         The Postal Service could play a future role in helping manage consumer delivery
                         preferences between physical and digital environments for sensitive business
                         communications (e.g., bills, statements, legal notices, letters). As shown in Figure 17, over
                         24% of respondents see definite value in the Postal Service providing a delivery
                         preference management system, with an additional 31% of respondents seeing potential
                         value.

                          Figure 17: Interest in Postal Service Providing Delivery Preference Manager
                                                              Service




                         Digital Mailbox Services
                         Moving beyond preference management, we also wanted to understand consumer
                         receptivity to the Postal Service providing a platform to receive digital communications in
                         a secure digital mailbox. Digital mailboxes are not traditional e-mail, but a secure,
                         trusted, third-party environment that gives consumers control over their mail delivery
                         preferences and allows them to screen and view mail digitally. Over 40% of respondents
                         expressed interest in having a digital mailbox service, with the majority of those
                         respondents saying they would trust the Postal Service to provide it.

                         The topic of digital mailboxes is new to many people, and 40% of respondents said they
                         were undecided about wanting the Postal Service to provide a digital mailbox, citing they
                         would like to learn more about digital mailboxes before making a decision. While it is
                         understandable that people would like to better comprehend how a digital mailbox works,
                         we also discovered that respondents’ reluctance toward the Postal Service providing this
                         service may stem more from fears associated with hacking and privacy rather than a lack
                         of familiarity.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                     19
   ANALYSIS                 What America Wants from the Postal Service




                            Despite assurances of security and privacy, respondents remained concerned about the
                            safety of their digital information. Open responses from the survey focused on the fact
                            that a digital mailbox would be a central location for a lot of personal information,
                            making it more valuable to a hacker. This was backed up by several respondents
                            commenting that nothing digital can ever be fully protected:

―I'd be afraid that            ―[The Postal Service] may claim to be hacker free, but that's not possible with all of
it's not in the best            the people that are so Internet/computer savvy. I'd be afraid that it's not in the best
interest of people to           interest of people to have all of their personal information located in one spot.‖
have all of their
personal                       ―I am not sure I fully trust such online service. Seems like everything gets hacked or
information located             has its service compromised sooner or later no matter how secure they say it is.‖
in one spot.‖
                               ―I don't think I would need this type of service. I realize that the post office is trying to
– 65+ year-old woman
                                move into the digital age, but I'm not sure I could trust it. Hackers are going to be a
from Minnesota
                                real problem in the future as more and more info is stored digitally and this would
                                give them just one more place to hack into your info.‖

                            In light of these concerns, if the Postal Service were to offer a digital mailbox service, it
                            should consider how to assure that the public’s information will be kept safe. This issue
                            will be critical in determining if the Postal Service is able to move forward with such an
                            offering. Additional research into this topic would be extremely beneficial, given that the
                            universal delivery needs of Americans are evolving rapidly to include digital services.




   © InfoTrends 2013 in collaboration with the USPS OIG                                                                         20
ANALYSIS                 What America Wants from the Postal Service




                         Conclusion
                         The Postal Service has been reliably serving the American people for over two centuries.
                         Its services have become engrained in American culture and most people want it to
                         continue to serve in existing and new capacities. As the Postal Service seeks to reduce
                         costs, respondents clearly indicated that it is important to uphold universal service. This
                         research has shown that Internet-connected Americans are open to the Postal Service
                         implementing new services and undertaking cost-reduction measures, as long as a certain
                         level of service is maintained. Survey results, however, demonstrate that preferences vary
                         significantly by age and are strongly motivated by convenience and reliability.
                         Respondents under the age of 35 indicated the most support for new services and have
                         shown that they value the Postal Service like older generations.

                         These findings help validate the importance of the Postal Service today, as well as support
                         the need to continue to discuss how to meet the new delivery needs of the American
                         public in an age of ever-expanding communication technology. Again, the respondents of
                         this survey did not include up to 20% of the American population not connected
                         consistently to the Internet—it is important that the Postal Service hears those opinions,
                         as well. While the Postal Service is looking to embrace new digital services, it will be
                         critical to bridge the digital divide by serving the needs of its customers through physical
                         and digital communication services.


                         This material is prepared specifically for clients of InfoTrends, Inc. The opinions expressed represent our interpretation
                         and analysis of information generally available to the public or released by responsible individuals in the subject
                         companies. We believe that the sources of information on which our material is based are reliable and we have applied
                         our best professional judgment to the data obtained.




© InfoTrends 2013 in collaboration with the USPS OIG                                                                                                  21
RARC-WP-13-009                                                               What America Wants from the Postal Service




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                              Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                           May 21, 2013
